   July 31, 2002




Supply Inventory
Management
Defense Logistics Agency Aviation
Investment Strategy Program
(D-2002-136)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AIS                   Aviation Investment Strategy
DLA                   Defense Logistics Agency
DORRA                 Defense Logistics Agency Office of Operations Research
                         and Resource Analysis
SAMMS                 Standard Automated Materiel Management System
          Office of the Inspector General of the Department of Defense
Report No. D-2002-136                                                       July 31, 2002
   (Project No. D2001LD-0076)

                        Defense Logistics Agency Aviation
                          Investment Strategy Program

                                Executive Summary

Who Should Read This Report and Why? Logistics and financial personnel interested
in monetary initiatives designed to improve military readiness, particularly those aimed at
aviation, should read this report. This report evaluates the effectiveness of the Defense
Logistics Agency investment strategy to improve supply support to aviation weapon
systems by increasing the stockage levels of consumable repair parts.

Background. Program Budget Decision 425, December 1, 1999, increased funding
beginning in FY 2001 to acquire consumable aviation repair parts by $500 million over a
4-year period. The Defense Logistics Agency requested the increase in funding in the
summer of 1999 to improve supply support of aviation repair parts and, in turn, the
readiness of aviation weapon systems. The Defense Logistics Agency named the
initiative the Aviation Investment Strategy program.

The Defense Logistics Agency is primarily responsible for satisfying the consumable
item needs of the Military Departments. The Defense Logistics Agency buys and
manages about $10 billion of consumable items each year through its supply centers.
Under the weapons system support concept of the Defense Logistics Agency, the Defense
Supply Center Richmond focuses on aviation weapons support. Because of its focus, the
Defense Supply Center Richmond is designated the lead center for carrying out the
Aviation Investment Strategy program, although the other supply centers have significant
roles.

Results. Although the Aviation Investment Strategy program had merit and should
continue, improvements in the execution of the program were needed. Given the
dynamics of the supply process and the severe constraints of its legacy automated supply
system, the Defense Logistics Agency faced a formidable task in mediating variable
safety level imbalances in aviation repair parts. Since the Aviation Investment Strategy
program began in September 1999 with selection of items for additive investment, the
Defense Logistics Agency has augmented the variable safety level of 6,400 items to
achieve an aggregate 85-percent supply availability rate. The augmentation amounted to
$320.2 million more for safety levels than the legacy system provided. The methodology
and criteria the Defense Logistics Agency used to augment the variable safety levels that
the legacy system provided were sound. However, DLA did not provide adequate
assurance that the computed additive quantities remained appropriate for all items. A
random stratified statistical sample of 180 items indicated that 3,375 (53 percent) of the
6,400 items selected for investment in FY 2000 and FY 2001 still warranted the
augmented safety levels the Defense Logistics Agency computed and the remaining
3,025 (47 percent) items either no longer needed an additive safety level quantity or did
not warrant their variable safety level augmented as much to attain an 85-percent supply
availability rate. As a result, we projected that $99.2 million of the Aviation Investment
Strategy program funds were potentially well invested and that $111.6 million could be
put to better use by investing in mission-critical items whose safety levels were still
insufficient and, therefore, additive investment would improve supply availability and
aviation readiness.

The Defense Logistics Agency, however, recognized that additive increases could be
shifted to other items and, subsequent to our review, initiated corrective action. As of
January 15, 2002, the Defense Logistics Agency had removed or planned to remove 19 of
our sample items from the Aviation Investment Strategy program and redistribute
$6.6 million to other items. The Defense Logistics Agency did not agree with our
projection that $111.6 million of the Aviation Investment Strategy program funds could
be put to better use. For details of the audit results, see the Finding section of this report.

Management Comments and Audit Response. The Defense Logistics Agency
generally concurred with the recommendations but disagreed with the use of the most
current supply availability data in determining additive safety level requirements. The
Defense Logistics Agency nonconcurred with the finding, the potential monetary
benefits, and our identification of a material management control weakness in the
execution of the Aviation Investment Strategy program. The Defense Logistics Agency
corrective actions were generally responsive. However, we determined that the Defense
Logistics Agency did not use consistent time frames for determining supply availability
and because it used an automated process, the use of the most recent data would not
significantly delay the procurement process. Additionally, we projected the funds put to
better use based on the results of our analysis of a valid random stratified statistical
sample. We request that the Defense Logistics Agency reconsider its comments on the
use of consistent and current data in determining supply availability data and potential
monetary benefits and provide additional comments by September 30, 2002.




                                              ii
Table of Contents

Executive Summary                                                     i

Background                                                           1

Objectives                                                           3

Findings
     Program Execution                                                4

Appendixes
     A. Audit Process
          Scope                                                      18
          Methodology                                                18
          Management Control Program Review                          20
          Prior Coverage                                             21
     B. Additional Detail on Items Selected for Review               22
     C. Glossary                                                     29
     D. Summary of DLA Comments on the Finding and Audit Response    30
     E. Summary of DLA Comments on Potential Monetary Benefits and
          Audit Response                                             32
     F. Summary of DLA Comments on Management Control Weakness and
          Audit Response                                             35
     G. Report Distribution                                          36

Management Comments
     Defense Logistics Agency                                        39
Background
    Supply Responsibility. The Defense Logistics Agency (DLA) is primarily
    responsible for satisfying the consumable item needs of the Military Departments.
    DLA buys about $10 billion of consumable items each year through its supply
    centers. The Defense Supply Center Columbus focuses on land and maritime
    weapons support. The Defense Supply Center Philadelphia focuses on troop
    support (clothing and textiles, medical items, and subsistence) and general
    commodity items such as lighting and office supplies. The Defense Supply
    Center Richmond focuses on aviation weapons support. Although the Defense
    Supply Center Richmond is the principal provider of aviation repair parts, both
    the Defense Supply Center Columbus and the Defense Supply Center
    Philadelphia have significant roles. For FY 2000, DLA sold $2.7 billion of
    aviation repair parts (233,000 line items) at standard prices. See Appendix C for
    definitions of standard prices and other supply terms used in this report.

    Aviation Investment Strategy Program. As part of Program Budget
    Decision 425, the Defense Resources Board approved the Aviation Investment
    Strategy (AIS) program on December 1, 1999. The Defense Resources Board is
    chaired by the Deputy Secretary of Defense and vice-chaired by the Chairman of
    the Joint Chiefs of Staff. Board members include the Secretaries for the Military
    Departments; the Vice Chairman of the Joint Chiefs of Staff; the Under Secretary
    of Defense for Acquisition, Logistics, and Technology; the Under Secretary of
    Defense for Policy; the Under Secretary of Defense (Comptroller); the Under
    Secretary of Defense for Personnel and Readiness; and the Assistant Secretary of
    Defense for Command, Control, Communications, and Intelligence. The Director
    of Program Analysis and Evaluation serves as the Executive Secretary.

    In the summer of 1999, DLA analyzed ways to meet a performance standard that
    was contractually established by the Defense Resources Board. The standard
    states that, “Aggregate supply availability for all weapon systems will be equal to
    or greater than 85 percent for each military service for each fiscal year.” DLA
    determined that it could achieve an aggregate standard by optimizing the
    performance of the supply centers but that pockets of items would remain below
    acceptable support rates. DLA proposed the AIS program as a way to address
    those pockets of items. The initial investment proposal called for increasing the
    safety level of about 18,000 repair parts whose supply availability rate was below
    85 percent for FY 1998. As of March 20, 2001, DLA planned to invest in
    11,945 items.

    Criteria. The supply availability rate is the percentage of requisitions completely
    filled when submitted to an inventory control point. The DoD standard is to fill
    customer requisitions at an aggregate supply availability rate of 85 percent by
    weapon system and Military Department. Although DLA had met the DoD
    standard in overall terms, requisitions for many individual and groups of aviation
    repair parts had historically been filled at a much lower rate. The reason for the
    lower rates, according to DLA, was that aviation repair parts are generally
    expensive and infrequently demanded and that all inventory optimization models-
    -including the model that the DLA legacy supply system, the Standard Automated
    Materiel Management System (SAMMS), employed--generally support low-cost,


                                         1
high-demand items. While providing better overall support, such optimization
models can also result in low supply availability rates for high-cost, infrequently
demanded items--those items that are characteristic of aviation repair parts and
that can have a disproportionate effect on readiness.

The AIS program is essentially an endeavor to compensate for the inventory
optimization model by raising the safety level higher than SAMMS provides. A
safety level is an additional quantity of items included in requirements that
provides protection against an item running out of replenishment stock, that is, the
sum of the reorder quantity and procurement lead time quantity. From a
stratification standpoint, an item becomes out of stock when the stock acquired to
cover its procurement lead time is exhausted. Thus, the safety level protects
against shortages that result from unforeseen or random increases in customer
demand and procurement lead time. DoD Regulation 4140.1-R, “DoD Materiel
Management Regulation,” May 20, 1998, limits the safety level quantity to the
quantity computed for the procurement lead time.

Funding. Program Budget Decision 425 increased funding to acquire aviation
repair parts by $500 million over a 4-year period beginning in FY 2001. The
Navy and Air Force were to finance the initiative equally by making annual
transfers from their operations and maintenance appropriations to the Defense
Working Capital Fund. Of the $500 million, $454 million was to be used for
replenishment (demand based) items and the balance ($46 million) used for
numeric stockage objective (insurance) items. The funds were to be distributed to
items by increasing safety levels. To ensure that the funds would be distributed
judiciously, DLA stratified the 11,945 items by mission criticality into three tiers
and requested the Military Departments to validate their selection. The following
table shows by fiscal year and tier how the funds were to be distributed.




                                     2
                       AIS Fund Distribution by Fiscal Year and Tier

      FY 2001                         FY 2002                       FY 2003                       FY 2004
    ($100 million)                  ($100 million)                ($150 million)                ($150 million)

    Tier 11 engine                  Tier 22 and 33                Tier 2 non-engine             Remaining
    items and                       engine items and              items and                     Tier 3 items
    Tier 1 non-                     remaining                     Tier 3 non-engine             and numeric
    engine items                    Tier 1 non-                   items with supply             stockage
    with long                       engine items                  availability less             objective
    procurement lead                                              than 50 percent               items
    times (including
    parachutes,
    helicopter blades,
    landing gear,
    and radar)

    1
        Tier 1 items support the 20 to 30 most critical weapon systems of a Military Department. The failure of a
        Tier 1 item would render a weapon system inoperable or would be needed for safety, legal, climatic, or
        other requirements peculiar to the planned operation of a weapon system.
    2
     Tier 2 items support the 20 to 30 most critical weapon systems of a Military Department. The failure of a
      Tier 2 item could cause impairment or temporary reduction in the operational effectiveness of a weapon
      system. Tier 2 items also support less critical weapon systems of a Military Department; Tier 2 items
      would render a less critical weapon system inoperable or would be needed for safety, legal, climatic, or
      other requirements peculiar to the planned operation of a weapon system.
    3
        Tier 3 items support weapon systems. The failure of Tier 3 items would not render a weapon system
        inoperable. Tier 3 items also support nonweapon systems.



    To accelerate the AIS program, DLA increased the safety levels of Tier 1 repair
    parts 1 year in advance of the funding so that receipt of items could better match
    the funding stream. As of March 20, 2001, DLA had increased the safety level
    for 6,400 items an equivalent of $320.2 million, of which about $250 million was
    designated for Tier 1 items. The Defense Supply Center Richmond is the lead
    supply center for carrying out the AIS program, while the DLA Office of
    Operations Research and Resource Analysis (DORRA) provides analytical
    support that includes assistance in item selection


Objectives
    The audit objective was to evaluate the effectiveness of the DLA investment
    strategy to improve supply support to aviation weapon systems by increasing the
    stockage levels of consumable repair parts. We reviewed the management control
    program as it applied to the audit objective. See Appendix A for a discussion of
    the audit scope and methodology, our review of the management control program,
    and prior coverage.




                                                       3
Program Execution
Although the AIS program had merit and should continue, improvements
in the execution of the program were needed. Given the dynamics of the
supply process and the severe constraints of its legacy automated supply
system, DLA faced a formidable task in mediating variable safety level
imbalances in aviation repair parts. Since the AIS program began in
September 1999 with the selection of items for additive investment, DLA
has augmented the variable safety level of 6,400 items to achieve an
85-percent supply availability rate. The augmentation amounted to
$320.2 million more for safety levels than SAMMS provided. The
methodology and criteria DLA used to augment the variable safety levels
SAMMS provided were sound. However, DLA did not provide adequate
assurance that the computed additive quantities remained appropriate for
all items. As of July 31, 2001, a random stratified statistical sample of
180 items indicated that 3,375 (53 percent) of the 6,400 items selected for
investment in FY 2000 and FY 2001 still warranted the augmented safety
levels DLA computed and the remaining 3,025 (47 percent) items either
no longer needed an additive safety level quantity or did not warrant their
variable safety level augmented as much to attain an 85-percent supply
availability rate because:

       •    the SAMMS supply position had improved and the items were
            achieving more than an 85-percent supply availability rate.

       •    the delivery method or supply status had changed, or the
            production capability remained limited.

       •    the revised safety level exceeded the prescribed safety level
            limitation.

Those conditions occurred because an implementation plan that would
provide adequate guidance for minimizing and rectifying unnecessary
stockage increases was not fully developed. As a result, we projected that
an estimated $111.6 million of the AIS program funds could be put to
better use by investing in mission-critical items whose safety levels were
still insufficient and, therefore, additive investment would improve supply
availability and aviation readiness.

DLA recognized that additive investments could be shifted to other items
and, subsequent to our review, initiated corrective action. As of
January 15, 2002, DLA removed or planned to remove 19 of our sample
items from the AIS program and redistribute $6.6 million to other items.
However, DLA did not agree with our projection that $111.6 million of
the AIS program funds could be put to better use. Details of our sample
and the sample results are shown in Appendix A. A list of the sample
items selected for review is provided in Appendix B.




                             4
Process
    Execution of the AIS program is essentially a five-step process:

           •   DORRA determines average supply availability rates and identifies
               potential candidates for additive investment.

           •   The Military Departments and DLA supply centers review potential
               candidates for additions and subtractions.

           •   The Defense Supply Center Richmond approves the final list of items
               for additive investment.

           •   DORRA computes safety level increases or additive investments.

           •   The Defense Supply Center Richmond sends the final list of items to
               the DLA supply centers for loading the safety level increases in
               SAMMS and initiating acquisition plans.

    Our review focused on how well the first four steps were accomplished. We did
    not review the actual investment or the obligation of additive funds for the items.
    To determine the effectiveness of the execution process, we took a random
    stratified statistical sample of the 6,400 consumable repair parts whose safety
    levels had been increased in FY 2000 and FY 2001. Those items were
    categorized mostly as either Tier 1 or Tier 2 and were selected to receive
    $320.2 million of additive investment funds. DLA initially computed the
    potential additive investment needed to attain a collective 85-percent supply
    availability rate essentially as:

           Potential Additive Investment (Safety Level Increase) = Maximum Authorized
           by DoD Regulation 4140.1-R (the Procurement Lead Time Quantity) - the
           Variable Safety Level Quantity SAMMS Provided

    We judged our sample of 180 items as needing the additive investment (increase
    in stock to achieve an 85-percent supply availability rate) based on the item’s
    supply position, as portrayed by stock control records or as related by item
    managers. We concluded that an item either needed or did not need a safety level
    increase based on review of transaction histories, back order performances,
    procurement lead times, stock on hand, demands, and variable safety levels. Our
    conclusion on the necessity of potential additive investments was also influenced
    by an item’s current acquisition method, production capability, and supply status.
    In addition, we considered the prescribed safety level limitation in determining
    whether an item that needed investment should receive a reduced amount. Again,
    DoD Regulation 4140.1-R limits the safety level quantity to the quantity
    computed for the procurement lead time. At the time of our review, none of the
    180 sample items had been excluded from potential investment.




                                           5
Anticipated Benefits
     Sample Projection. Execution of the $500 million AIS program could have
     better ensured that anticipated benefits in weapon system readiness were
     achieved. As of July 31, 2001, a random stratified statistical sample of 180 items
     indicated that 3,375 (53 percent) of the 6,400 items selected for investment in FY
     2000 and FY 2001 still warranted the augmented safety levels DLA computed but
     that the remaining 3,025 (47 percent) items either no longer needed an additive
     safety level quantity, or did not warrant their variable safety level augmented as
     much, to attain an 85-percent supply availability rate because:

            •   the SAMMS supply position had improved, and the items were
                achieving more than an 85-percent supply availability rate.

            •   the delivery method or supply status had changed, or the production
                capability remained limited.

            •   the revised safety level exceeded the prescribed safety level limitation.

     Of the 3,025 items we projected as having higher than necessary augmented
     safety levels, 2,321 had inventory level increases that were no longer needed and
     those increases amounted to $111.6 million more than necessary to attain a supply
     availability rate of 85 percent. We did not project the dollar amounts for safety
     level increases of another 704 items that we concluded warranted reduction.

     Sample Results. Of our sampled items, we determined that the safety level
     increase for 83 items was necessary to improve the supply availability rate for
     those items. For another 30 of the sampled items, part of the increased safety
     level could have been used to augment other items with less than an 85-percent
     supply availability rate; and, for 23 of those items, the revised safety level also
     exceeded the safety level limitation. The 30 items were included in our item
     projection but were excluded from our dollar projection because we could not
     estimate reduced dollar amounts that could be shifted to other mission-critical
     items. For the remaining 67 sampled items, the safety level increase was no
     longer needed to achieve an 85-percent or higher supply availability rate
     (50 items) or would have no effect on supply availability (17 items); and, for
     21 of those items, the revised safety level also exceeded the safety level
     limitation. For the sample items that no longer needed safety level increases:

            •   50 items attained an 85-percent or higher supply availability rate after
                the items were selected for additive investment. The items were below
                the 85-percent supply availability rate when they were initially
                selected for additive investment; however, their supply availability
                rate improved to as much as 100 percent at the time of our review. For
                16 of the items, the revised safety level was also higher than the safety
                level limitation.

            •   8 items were supported by direct vendor delivery or prime vendors
                after the items were selected for additive investment. The revised
                method of support meant that safety levels would play a substantially


                                           6
           lesser role in determining the quantitative requirements of an item
           because the Government was no longer involved in supply and
           distribution functions. Therefore, the computed additive safety levels
           were extraneous. For three of the items, the revised safety level was
           also higher than the safety level limitation.

       •   7 items were already being procured at maximum amounts as a result
           of production limitations at the time the items were selected for
           additive investment. A limited production capability meant that added
           investment would not improve supply availability because no
           additional stock could be provided regardless of the safety level
           increase. For one of the items, the revised safety level was also higher
           than the safety level limitation.

       •   2 items became obsolete or were replaced after the items were selected
           for additive investment. For one of the items, the revised safety level
           was also higher than the safety level limitation.

Under those circumstances, safety level increases may have improved supply
availability in some cases but would have limited effect in improving overall
supply responsiveness and were often unauthorized. Appendix B contains details
on selected items.

Potential overstockage generally occurred because DLA did not continue to verify
the appropriateness of safety level increases initially computed, while the supply
position and acquisition method of items changed from the time the items were
deemed to need additive investment until safety levels were increased.

        Baseline Time Frame. The baseline for selecting aviation repair parts for
additive investment occurred during a turbulent time for DLA logistics. In
September 1999, execution of the AIS program began when DLA identified
aviation repair parts for increased safety levels on the basis that the parts did not
meet an 85-percent supply availability rate. Average supply availability rates
computed for the items were based on the FY 1998 through FY 1999 time frame.
Shortly before or during FY 1998 through FY 1999, DLA closed or realigned
supply centers, redistributed management responsibility for thousands of items,
and initiated new commercial business practices for acquiring many items. In
addition, inventory reduction was a DLA goal during that time; and the DLA
supply centers were not supporting aviation repair parts at 100 percent of demand
to reduce supply inventory, thereby straining safety levels and supply
responsiveness. However, the events and management decisions that occurred
during the FY 1998 through FY 1999 time frame were unique and their short-term
effect on requirements could have been generally anticipated. DLA did not
adequately consider that the supply performance of aviation items was atypical
during the turbulent time frame in computing additive safety level requirements.
As a result, computed additive safely level requirements for certain items became
excessive when supply performance stabilized.

        Safety Level Increases. Increases in aviation repair part safety levels
were made during a much more stable time for DLA logistics. DLA increased the
safety levels for 6,400 items in January 2000 (2,823 items in FY 2000) and


                                      7
    between October 2000 and February 2001 (3,577 items in FY 2001). The safety
    levels were initially increased as many as 40 months after the time period that
    began in October 1997 for assessing the supply availability of items. Since
    October 1997, unsatisfactory supply availability occurred on an individual item
    basis, but the overall trend has been toward improved supply availability and a
    need for less additive investment.

    In April 2001, using prevailing data analysis tools and DLA records, we assessed
    supply availability of the 2,823 items whose safety levels had been increased in
    January 2000. The average supply availability rate of the 2,823 items improved
    from 34 percent in FY 1998 to 67 percent in FY 2000, although little additional
    stock had been received from the additive investment. For 1,423 of the
    2,823 items, the average supply availability rate exceeded the 85-percent additive
    investment criteria by an average of 13.1 percent. Therefore, the increased safety
    levels appeared unnecessary. The potentially unnecessary safety level increases
    were primarily the result of an improved supply position of the items.
    Conversely, for 1,400 of the 2,823 items, the average supply availability rate was
    below the additive investment criteria an average of 49.7 percent and, therefore,
    the increased safety levels appeared to be appropriate but potentially not enough.
    Had the safety levels for the 1,423 items been monitored, safety level protection
    could have been shifted to the more needy items.


Implementation Plan
    The potential for overinvestments was established and remained in SAMMS
    because an implementation plan, one that would provide adequate guidance for
    minimizing and rectifying unwarranted stockage increases, was not fully
    developed. With the general trend toward improved supply availability, planning
    the execution process became critical for the success of the AIS program, if
    appropriate investments were to be identified and executed. The Defense Supply
    Center Richmond prepared the initial implementation plan for DLA in
    December 1999 and updated the plan in October 2000. The initial
    implementation plan was prepared the same month that the AIS program was
    approved and 1 month before the items selected for funding in FY 2000 had their
    stockage levels increased. Thus, the initial implementation plan was unavailable
    for much of the execution process and provided mostly background information
    on the AIS program as well as the status on what had either been accomplished or
    milestones for planned events. The updated implementation plan also emphasized
    program accomplishments and lacked the specificity needed to minimize and
    rectify unnecessary stockage level increases. More definitive guidance was
    needed over validating potential candidates for additive stockage, computing
    safety level requirements, reviewing appropriateness of safety level increases, and
    accounting for supply changes as well as maintaining safety level increases within
    prescribed limitations. The updated implementation plan also lacked effective
    administrative provisions because it did not have higher level endorsement, it was
    not coordinated with the Military Departments, and it contained no process for
    resolving issues.




                                         8
Validating Potential Candidates. The implementation plan contained no
specific guidance for validating potential candidates for additive stockage. The
validation of items selected for increased safety levels was to be carried out by the
Military Departments and the DLA supply centers. However, factors for
validating potential investments were not formally established in the
implementation plan. For FY 2000 potential investments, incorporation of more
definitive guidance in the implementation plan was moot because not enough time
was allowed to conduct validations from the time the AIS program was approved
in December 1999 until the time the safety levels of items were increased in
January 2000. For FY 2001 investments, DLA did request the Military
Departments and supply centers to review the candidates for additive investment,
but provided no specific instructions on the criteria, what to review, or the
alternatives. DLA told the Military Departments and supply centers to look for
anything that could affect potential investments. Obsolescence and design
changes were given as examples. As a result, efforts to identify questionable
candidates for additive stockage were far from aggressive or comprehensive. Of
125 DLA supply managers interviewed, 30 told us that they had either questioned
their supervisors or had reservations about increasing the safety level of items but
took no action to eliminate the candidates or reduce the safety level quantities
computed.

Computing Requirements. The implementation plan contained no instructions
that would help ensure that any supply data used in computing safety level
increases were consistent and current. The implementation plan provided that
safety level increases were to be computed on the basis of supply availability
performance for 2 fiscal years. However, the plan did not provide for using the
most recent supply data to determine past supply availability performance. For
the FY 2000 and FY 2001 safety level increases, DLA was not consistent because
it used supply data for various time periods to determine average supply
availability rates, none of which included supply data from the quarter that
preceded the quarter when safety levels were increased. The additive stockage
quantities computed for FY 2000 and FY 2001 were based on supply data that
was at a minimum of 3-months old before safety levels were increased by supply
centers. DLA officials told us that consistent and more recent supply data were
not used because of time constraints and because the safety level increases would
not be materially different.
        Time Constraints. To give supply centers ample time to meet annual
obligation goals, DLA officials told us that they had to finalize a list of items for
increased safety levels before the start or at the beginning of a fiscal year.
Finalizing such a list of items meant that the supply data for the preceding fourth
quarter were not considered in the calculation of safety level increases. The
Defense Supply Center Richmond approves and sends the final list of items to the
supply centers for loading increases to safety levels in SAMMS after:

       •   DORRA computes the average supply availability rates and identifies
           potential candidates for additive investment;




                                      9
       •   Military Departments and supply centers review the potential
           candidates for additions and deletions; and,

       •   DORRA computes the safety level increases or potential additive
           investments.

The DORRA computations are automated and could be performed relatively
quickly (within 2 weeks) before and after the review that the Military
Departments and supply centers perform. To promote accuracy, the second
DORRA computation should be based on the most current prior 2 fiscal years of
supply data (including the fourth quarter) and performed early in the next or same
quarter in which items are invested. Doing so would likely identify some
additions and deletions that were not reviewed by the Military Departments and
supply centers. The additions, if material, could be held for the next investment
period or aggressively reviewed within a strict time frame. The deletions, if
material, could be eliminated. Having supply centers increase safety levels based
on the most recent supply data is not an insurmountable impediment to achieving
annual obligation goals and promotes accuracy and the likelihood of improving
the readiness of aviation weapon systems.

        Materiality. DLA officials also stated that the use of the most recent
supply data to compute safety level increases would not materially change the
dollar amount of additive investments. Although that statement was generally
true from an overall investment standpoint, the use of current supply data would
have had an impact on the safety level increases computed for individual items.

       •   For FY 2000 investments, we used two computer analyses DORRA
           prepared to compare supply data for all of FY 1999 to the time frame
           that DLA used through the third quarter to compute additive
           investments. The comparison showed that the computed additive
           investment for 2,743 (97.2 percent) of the 2,823 selected aviation
           repair parts would have changed. The safety levels would have
           decreased by $62.4 million (63.4 percent) for 1,824 items and would
           have increased by $40.4 million (53.6 percent) for 919 items.

       •   For FY 2001 investments, we also used two computer analyses
           DORRA prepared to compare supply data available for all of FY 2000
           to the time frame that DLA used through FY 1999 to compute the bulk
           of additive investments. The comparison showed that the computed
           additive investment for 3,409 (95.3 percent) of the 3,577 selected
           aviation repair parts would have changed. The safety levels would
           have decreased by $51.5 million (54.8 percent) for 1,816 items and
           increased by $50.5 million (112.2 percent) for 1,593 items.

In effect, additive safety level increases for individual items change in response to
quarterly movements in supply availability. Consequently, the most recent supply
data should be used as a basis of computing accurate additive requirements and as
a way of ensuring improvements in readiness.

Reviewing Safety Level Increases. The implementation plan contained no
instructions on reviewing safety level increases for continued appropriateness.


                                     10
The implementation plan contained milestones for only the four initial investment
periods through FY 2003 and, based on the routine established for program
execution, the AIS program appeared to end after 4 years when all of the
$500 million was invested. DLA officials had made no plans to manage the AIS
program beyond the initial 4-year investment period, and inappropriate
investments would subsequently be absorbed into the Defense Working Capital
Fund. As of March 20, 2000, DLA had increased the safety levels for 6,400 items
the equivalent of $320.2 million, but had not reviewed any of the items to
determine if the augmented levels were still appropriate. DLA officials indicated
that it was too early to review past stock increases. However, as previously
discussed, the results of our sample of the 6,400 items showed that 2,321 items
should have had their computed additive investments shifted to other mission-
critical items as of July 31, 2001. The safety level increases had limited effect on
supply responsiveness and, for at least 17 of the sampled items identified by us as
no longer needing safety level increases, the conclusion could not change. The
safety level increases for those items would not change because, for the most part,
the improved supply position of the items was the result of a permanent change,
such as the use of direct vendor delivery, to acquire the items. Unless augmented
safety levels are periodically reviewed and adjusted as appropriate, a portion of
the AIS program will increase inventory without an improvement in readiness.

Maintaining Safety Level Increases. The implementation plan contained no
instructions on accounting for supply changes and maintaining additive safety
level increases within prescribed limitations. To determine the quantitative
increase needed to attain at least an 85-percent supply availability rate, DLA
initially computed additive safety level increases essentially as the difference
between the maximum safety level authorized by DoD Regulation 4140.1-R (the
procurement lead time quantity) and the variable safety level as SAMMS
computed based on quarterly demands. DLA maintained the same additive safety
level increase without taking into account changes in SAMMS, even though
changes had occurred in demands, procurement lead times, and variable safety
levels of the items.

Since initially computing additive safety level increases, DLA has twice changed
its method of maintaining additive investments in SAMMS--essentially
discounting actual supply position changes and perpetuating the same additive
investment. Under the method in effect since June 2001, the “difference” can
take the place of the variable safety level and exceed the safety level limitation.
For example, the initial computation for one of our sample items, a
$1,739.70 support beam assembly with a supply availability rate at 72 percent in
September 1999, resulted in an additive safety level increase of 47 ($81,766) as
follows:

                        September 1999 Computation

       Safety Level Limitation - Variable Safety Level   = Safety Level Increase
                50 ($86,985) -        3 ($5,219)         =        47 ($81,766)

When we reviewed the assembly in April 2001, the assembly would not even
qualify for additive investment because its supply availability rate had reached
100 percent without the additive investment protection. Further, because of the


                                        11
changes in the demand or procurement lead time of the assembly, the maximum
amount of additive safety level that would have been authorized if it were
computed would have been reduced to 10 ($17,397) as follows:

                               April 2001 Computation

       Safety Level Limitation - Variable Safety Level   = Safety Level Increase
               25 ($43,493) -        15 ($26,096)        =        10 ($17,397)

If the June 2001 method of maintaining the additive investment in SAMMS had
been in effect in April 2001, the additive safety level (47) for the assembly would
have been more than the safety level limitation (25) and the variable safety level
(15) combined. An effect of using that method was that AIS program funds
would not only pay for a safety level increase that had become unnecessary, but
would also be used to partially finance a safety level that normally would have
been financed by the Defense Working Capital Fund without the
additive investment.

The approach DLA initially used to select and calculate safety level increases
within the safety level limitation should have remained consistent as supply
positions changed. As supply positions improved, the amounts of additive
investment calculated should have been reduced to accommodate variable safety
level increases and stay within the safety level limitation. Without accounting for
changes in the supply position of items, DLA lacked oversight of investments that
could be shifted to items with a greater need. Had the June 2001 method of
maintaining additive investments been used for the Defense Supply Center
Richmond-managed items as of March 31, 2001, $45.8 million of the
$103.8 million additive investment maintained in SAMMS for 654 items would
have been above the safety level limitation. In addition, because the variable
safety level that SAMMS provided would have been overridden, the AIS program
would finance a stockage level increase of $13.8 million that should have been
financed by the Defense Working Capital Fund. DLA needs to select an
appropriate method of maintaining safety level increases, one that accounts for
changes in the supply position of items and complies with the safety level
limitation. The method should be formally established in the implementation plan
as a way of accurately identifying and reallocating funds earmarked for
unnecessary investment.

Administrative Provisions. The implementation plan also lacked effective
administrative provisions. The plan did not have higher-level endorsement, it was
not coordinated with the Military Departments, and it contained no process for
resolving issues. The implementation plan was developed by a small group of
DLA officials employed at the Defense Supply Center Richmond. Notably,
despite repeated requests to DLA headquarters representatives for feedback on the
implementation plan, none was received and the implementation plan was
adopted as final by the officials at the Defense Supply Center Richmond. Higher-
level endorsement of the program’s planned execution process was needed at
DLA headquarters as well as the Military Departments. The AIS program is
essentially a partnership between DLA and the Military Departments designed to
improve the readiness of aviation weapon systems. However, DLA did not seek
any Military


                                        12
    Department participation when preparing the implementation plan or an
    agreement as to how the AIS program was to be executed. The lack of agreement
    appears to have had a negative bearing on the success of the AIS program.

    The Military Departments have participated in varying degrees in quarterly
    working group meetings held by DLA to discuss execution issues. The chief
    issue the Military Departments raised at each of five meetings taking place
    through April 2001 concerned criteria used to select candidates for additive
    investment. The Military Departments believed that the selection criteria should
    take into account an item’s impact on readiness rather than relying on an item’s
    supply availability rate. The disagreement had not been resolved and had likely
    contributed to less enthusiasm for carrying out the execution process. For the
    FY 2002 investment period, for example, the Navy and Air Force were 2 months
    late in validating the items DLA selected for additive investment and, as of
    June 2001, the Army did not reply at all. To ensure success of the AIS program,
    the implementation plan should be formally approved by DLA headquarters,
    present a joint, agreed-to approach by DLA and the Military Departments toward
    program execution, and provide a flag or general officer resolution process
    whenever problem elevation is necessary.


Readiness Impact
    Unless safety level increases are made with greater accuracy and periodically
    adjusted when they are unnecessary, the AIS program will not achieve all of the
    gains in readiness anticipated for aviation weapon systems. Program Budget
    Decision 425 cites a study that the Office of the Director, Program Analysis and
    Evaluation made that predicts a 3-percent to 4-percent improvement in aviation
    readiness, an equivalent of 140 additional aircraft ready each day from increasing
    the safety level of consumable aviation repair parts by $500 million. However, no
    system was put in place that could tie in the additive investments in repair parts to
    gains in aircraft readiness. Therefore, the predicted gains in readiness could not
    be substantiated. Nevertheless, according to DoD officials responsible for
    developing Program Budget Decision 425, the prediction of improved readiness
    was speculative and based on the supposition that improved supply availability
    would equate to improved readiness.

    Better program execution, enhanced by Military Department coordination and a
    higher-level management involvement, is needed to ensure investments are
    applied to items that need an increase in supply availability and are within
    prescribed safety level limitations. Therefore, more definitive guidance was
    needed for validating potential candidates, computing requirements, reviewing
    safety level increases, and maintaining additive safety levels in line with supply
    position changes and prescribed limitations. Items for which the supply
    availability rate is already at an acceptable level or do not warrant improvement
    need to be identified and the resulting funds put to better use. Based on statistical
    sample results, we projected that an estimated $111.6 million could be put to
    better use by shifting safety level increases to mission-critical items in greater
    need that require additive investments. Given the dynamics of the supply process
    and the severe constraints of the legacy automated supply system, DLA faced a


                                         13
    formidable task in mediating variable safety level imbalances in aviation repair
    parts. Although the methodology and criteria DLA used to augment the variable
    safety level of items was sound, more assurance that the additive amounts
    remained appropriate was needed.


Management Comments on the Findings and Audit Response
    A summary of DLA comments on the finding and discussion and audit response
    is in Appendix D.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Logistics Agency:

           1. Direct the Defense Supply Center Richmond to revise the Aviation
    Investment Strategy implementation plan to more fully express how the
    program execution process should be accomplished to ensure appropriate
    additive investments. Specifically, the plan should:

                  a. Describe the factors to be used by the Military Departments
    and supply centers to evaluate the validity of potential candidates for
    additive investment.

    DLA Comments. DLA concurred and stated that the draft FY 2002
    Implementation Plan contains the recommended revisions and has been reviewed
    by the Military Departments.

                  b. Require that additive safety level requirements be based on
    consistent and up-to-date supply availability data.
    DLA Comments. DLA concurred with the recommendation but disagreed on
    what constitutes “up-to-date” supply availability data as well as that the supply
    data used in computing safety level increases were inconsistent and not current.
    DLA considered action on the recommendation completed. DLA stated that
    although it did not include the most recent quarter, the supply availability data
    were consistent in that it used the preceding seven quarters and that no reason
    existed to dispute the accuracy of DORRA data. The data for the calculation were
    as current as the DORRA analysts concluded the data needed to be, while still
    allowing for completing the analysis in a timely fashion before the beginning of
    the next fiscal year. DLA also stated that identification, selection, and
    computation processes are automated to an extent, but the processes have many
    time-consuming steps that can take as long as a month to complete each update
    cycle. Add the time inventory control points and the Military Departments need
    for reviews and DLA may not begin the procurement of the additive safety level
    quantities until well into the second quarter of the fiscal year. The benefit derived
    from using the latest quarter of supply availability data would be countermanded


                                         14
by the loss of time available in a fiscal year for the actual procurement of the
additive items. DLA further stated that the draft report was deceptive because it
did not address the degree to which the quantities varied in the analysis of
FY 2000 DORRA data. Additionally, DLA stated that for FY 2001, DORRA also
used data through the first three quarters of FY 2000, not simply data from
FY 1999.

Audit Response. DLA comments were not fully responsive because our analysis
indicated that the supply data used in computing safety level increases were
inconsistent and were not current . The implementation plan contained no
instructions on the time frame that supply data were to represent in determining
safety level increases. We did not question the accuracy of DORRA data; we
questioned the use of different and dated time frames to select supply data and
compute supply availability rates. For the FY 2000 and FY 2001 safety level
increases, DLA used four different timeframes to select supply data and compute
safety level increases for four separate sets of items: none of those time frames
included supply data for the quarter preceding the safety level increases. FY 2000
safety level increases made in January 2000 were based on supply data through
June 1999; thus, the supply data were already 6-months old when safety levels
were increased. Most FY 2001 safety level increases were made in October 2000
and were based on supply data through September 1999. Therefore, the supply
data were 12-months old when the safety levels were increased. Some FY 2001
safety level increases made in October 2000 resulted from recommendations of
the AIS working group and were based on supply data through June 2000; thus,
the supply data were 3-months old when the safety levels were increased. Some
FY 2001 safety level increases were made in February 2001 as a result of
replacements and were based on supply data through September 2000; thus, the
supply data were 4-months old when the safety levels were increased.

Computing safety level increases is an entirely automated process and, according
to DORRA officials contacted during the audit, should take about 2 weeks to
perform. The finding does not envision a multiprocess effort and subsequent
reviews by inventory control points and the Military Departments, and so states.
The objective of the AIS program is to increase the readiness of aircraft; the
program’s success can be best assured by spending the limited additive funds
made available on the right items and in the right amounts. Taking an additional
2 weeks to recompute requirements and attain better accuracy would be in the
interest of the AIS program and would not materially affect the annual
procurement program of the Defense Working Capital Fund.

The use of more current supply data to compute safety level increases could have
significantly changed how funds were invested, regardless of degree of variance
to individual items. Our review of DORRA analyses showed that, by using
supply data through FY 1999 instead of the fourth quarter of FY 1998 and the
first three quarters of FY 1999, safety levels decreased by $62.4 million for 1,824
items and increased by $40.4 million for 919 items. In net terms, the items
selected for $178 million of investments would have received about $22 million
less. The significance of the analyses was the indication that supply performance
was improving without the benefit of additional stock--a trend that was to
continue through at least FY 2000. In an environment of improving supply
performance, not using current supply data to compute increases in safety levels


                                    15
can result in overinvestment in items at the expense of items of greater need and
an increased probability of exceeding safety level limitations. In addition, we
recognize that DLA used data from two other analyses--one analysis of data that
included the first three quarters of FY 2000 and another analysis of data that
included all four quarters of FY 2000--for FY 2001 investments. However, the
bulk of the investments were based on data from the FY 1999 analysis as reported
to us by DLA. We request DLA reconsider its position and provide additional
comments in response to the final report.

               c. Require regular reviews to determine whether additive
safety levels continue to be appropriate. Establish a frequency for when and
how often reviews should be made and the criteria for making necessary
safety level adjustments and reinvesting funds.

DLA Comments. DLA concurred and stated that the recommended action was
completed.

              d. Establish a method for maintaining safety level increases
that adheres to the DoD safety level limitation while recognizing and
adjusting to changes in the supply system.

DLA Comments. DLA concurred and indicated that the recommended action
was completed. However, DLA disagreed with points in our discussion on safety
level computations. DLA stated that the DORRA computer model determined the
additive safety level quantity needed for each item so that a group of items was
able to reach an 85-percent supply availability rate. If the computed additive
safety level quantity exceeds the quantity allowed by the safety limitation, the
additive safety level quantity is reduced. If the computed additive safety level
quantity were lower than the safety level limitation, the additive quantity was not
raised higher to equal the safety level limitation.

DLA changed its method of maintaining additive investments in SAMMS based
on input from DORRA and the supply centers that showed that normal SAMMS
variable safety level changes were being lost and having an adverse impact on
items. DLA agreed that a consistent formula and method for determining the
safety stock requirement throughout the life of the AIS program was needed and
that it was being achieved in its current process. The criteria for adjusting safety
stock additives should permit some flexibility to account for random fluctuations
in demand and adjustments to AIS program items and additives should be
infrequent so as to facilitate procurement executions.

Audit Response. DLA comments are responsive. Concerning DLA comments
on the discussion of safety level computations, the formula in the draft report was
not intended to literally represent the actual calculation DORRA used to
determine additive investments. For each candidate item, DORRA initially
calculated the variable safety level provided by SAMMS and the augmented level
needed to achieve an 85-percent supply availability rate. However, because of the
safety level limitation, not every item could receive the full augmented amount.
To attain the collective 85-percent supply availability rate, DORRA increased the
augmented amount for other candidate items to meet a supply availability rate of
up to 100 percent. The effect of raising the supply availability rate was that the


                                     16
    augmented safety level essentially represented the safety level limitation, which
    the formula illustrated in the draft report discussion.

    The DLA method of maintaining additive investments did not regulate or change
    the amount of actual additive investments even though allowable additive
    investments that SAMMS provided had often decreased and less augmentation
    was needed to comply with the safety level limitation. That condition was clearly
    illustrated in our discussion of the third method DLA used to maintain additive
    investments. For 654 items the Defense Supply Center Richmond managed as of
    March 31, 2001, the third method provided for maintaining the additive
    investment as a fixed amount, not accounting for changes in the variable safety
    levels that should have been offset by decreases in the additive investments.
    Because the additive investment remained fixed, we determined that the additive
    amounts would have exceeded the safety level limitation by $45.8 million.

                  e. Establish a time frame for continuous program evaluation
    and a resolution process that includes a flag or general officer from each
    Military Department whenever problem elevation is needed.

    DLA Comments. DLA concurred and stated that the recommended action was
    completed.

          2. Approve and coordinate with the Military Departments the revised
    implementation plan.

    DLA Comments. DLA concurred and stated that the recommended action was
    completed.


Management Comments on Potential Monetary Benefits and
 Management Controls and Audit Response
    A summary of DLA comments on potential monetary benefits and audit response
    is in Appendix E. A summary of DLA comments on the management control
    weakness and audit response is in Appendix F.




                                        17
Appendix A. Audit Process

Scope
    To review the effectiveness of the DLA investment strategy designed to improve
    supply support to aviation weapon systems, we took a random stratified statistical
    sample of consumable repair parts selected for increased safety levels as of
    March 20, 2001. DLA provided us with the database of consumable repair parts
    that were selected for increased stockage as of March 20, 2001. The database
    contained 11,945 items that were to receive additive funding for fiscal years 2000
    through 2003. We sampled 180 of 6,400 items whose safety levels were
    increased during FY 2000 and FY 2001. The sample represented aviation repair
    parts used by each of the Military Departments and managed by each of the three
    Defense Supply Centers--Columbus, Ohio; Philadelphia, Pennsylvania; and,
    Richmond, Virginia. For each sampled item, we conducted interviews with item
    managers at the DLA supply centers. We also interviewed officials and obtained
    documentation that included background information and guidance from DoD,
    the Military Departments, and DLA headquarters. Information on the status of
    the AIS program (the implementation plan) was reviewed at the AIS program
    office at the Defense Supply Center Richmond. Information on the methodology
    and criteria used to select items for the AIS program was reviewed at DORRA.
    The documents we reviewed at DLA supply centers included demand histories,
    supply control records, transaction histories, and procurement histories dated
    from July 1999 through July 2001.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Inventory Management high-risk area.


Methodology
    To determine whether items selected for increased stockage still needed additive
    investment, we took a random stratified statistical sample of 180 of the
    6,400 repair parts whose safety levels had been increased during FY 2000 and
    FY 2001. Those items were mostly categorized as Tier 1 and Tier 2 and targeted
    for $320.2 million of additive investment. We judged our sample of 180 items as
    being increased an appropriate amount of stock to achieve an 85-percent or higher
    supply availability rate based on their supply position, as portrayed by stock
    control records or as related by item managers. We primarily concluded that an
    item warranted or did not warrant a safety level increase based on a review of
    transaction histories, back order statistics, procurement lead times, stock on hand,
    demands, and variable safety levels. Our conclusion on the appropriateness of
    potential additive investments was also influenced by an item’s current
    acquisition method. We also considered the prescribed safety level limitation in
    determining whether a potential additive investment was warranted. In addition
    to our statistical sample, we also used available DLA records and computer
    analyses maintained by DORRA to make summary evaluations of changes in

                                        18
supply availability and fluctuations in safety levels for items whose stockage
levels were increased in FY 2000 and FY 2001.

Universe and Sample. DLA provided us with the database of consumable repair
parts that were selected for increased stockage as of March 20, 2001. The
database contained 11,945 items selected for additive investment in FY 2000
through FY 2003. The universe consisted of a database of 6,400 repair parts that
had received additive safety level increases in FY 2000 and FY 2001. The repair
parts were managed at three locations--the Defense Supply Center Columbus, the
Defense Supply Center Philadelphia, and the Defense Supply Center Richmond.

Sampling Purpose. The purpose of the random stratified statistical sampling
plan was to estimate the number and dollar value of repair parts and funds that
were appropriately used to improve supply support to aviation weapon systems.

Sampling Design. We designed a random stratified statistical sampling plan,
based on the total dollar value of the additive safety level of items. Stratum
A consisted of 119 items that were valued greater than or equal to $500,000.
Stratum B consisted of 1,002 items that were valued greater than or equal to
$50,000 but less than $500,000. Stratum C consisted of 5,279 items that were
valued less than $50,000. Items were randomly selected from each stratum
without replacement. Thirty items were randomly selected from stratum A,
30 items were randomly selected from stratum B, and 120 items were randomly
selected from stratum C.

Sampling Results. We derived the following statistical estimates.


                          Table A-1. (95-Percent Confidence Interval)
                                   Lower         Point          Upper
                                   Bound        Estimate        Bound

   Valid dollars                 $60,988,969   $99,209,337    $137,429,706
   Valid items that
    required investment             2,826         3,375           3,923

   Invalid dollars               $71,994,831   $111,648,879   $151,302,927
   Invalid items that
    required no investment          1,786         2,321           2,856

   Invalid items that required
    reduced investment               363           704            1,045


We are 95-percent confidant that the dollar value of items considered valid is
between $60,988,969 and $137,429,706 and the number of items is between
2,826 and 3,923. We are 95-percent confidant that the invalid dollars associated
with items that required no investment are between $71,994,831 and
$151,302,927 and the number of invalid items is between 1,786 and 2,856. We
are 95-percent confident the number of items that required reduced investment is


                                       19
    between 363 and 1,045 in the database. The dollar amount of those items that
    required reduced investment could not be projected because we could not
    estimate the reduced dollar amounts. The results of our sample, by supply center,
    are shown in the following table.

        Table A-2. Sample of 180 Items with Additive Safety Levels
                             (as of July 31, 2001)

                                   DSCC         DSCP           DSCR           Total

    Appropriate Investment           18           24             41            83

    No Investment Needed             12            6             49            67

    Reduced Investment Needed         4            5             21            30

                    Total            34           35            111           180

    DSCC Defense Supply Center Columbus
    DSCP Defense Supply Center Philadelphia
    DSCR Defense Supply Center Richmond


    Use of Computer-Processed Data. We used computer-processed statistics and
    supply management information that came from SAMMS to determine audit
    sample selection and supply status. Although we did not perform a formal
    reliability assessment of the computer-processed data, we determined through
    discussions with item managers that an item’s supply status and contract method
    generally agreed with the information in the computer-processed data. We did
    not find errors that would preclude use of the computer-processed data to meet the
    audit objectives or that would change the conclusions in this report.

    Use of Technical Assistance. Statisticians from the Audit Followup and
    Technical Support Directorate, Quantitative Methods Division, Office of the
    Assistant Inspector General for Auditing of the Department of Defense,
    developed the statistical sampling plan and selected the random sample for this
    audit.

    Audit Dates and Standards. We conducted this economy and efficiency audit
    from March 2001 through February 2002, in accordance with generally accepted
    government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”


                                          20
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DLA management controls over the AIS execution program. We
    also reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. As defined by DoD Instruction 5010.40,
    we identified a material management control weakness in the execution program
    for the aviation initiative. An implementation plan that would ensure that safety
    level increases were necessary for aviation repair parts was not implemented.
    The recommendations in this report, if implemented, will correct the material
    weaknesses and could result in funds put to better use of about $111.6 million. A
    copy of this report will be sent to the senior official in charge of management
    controls for the Defense Logistics Agency.

    Adequacy of Management’s Self-Evaluation. DLA did not identify reviewing
    the AIS program as an assessable unit and, therefore, did not identify or report the
    material management control weaknesses identified by the audit.


Prior Coverage
    During the last 2 years, the General Accounting Office has issued five reports.
    General Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov.

    General Accounting Office Report No. GAO-01-772, “Army Inventory: Parts
    Shortages Are Impacting Operations and Maintenance Effectiveness,” July 2001

    General Accounting Office Report No. GAO-01-771, “Navy Inventory: Parts
    Shortages Are Impacting Operations and Maintenance Effectiveness,” July 2001
    General Accounting Office Report No. GAO-01-587, “Air Force Inventory: Parts
    Shortages Are Impacting Operations and Maintenance Effectiveness,” June 2001

    General Accounting Office Report No. GAO-01-472, “Information on the Use of
    Spare Parts Funding is Lacking,” May 2001

    General Accounting Office/NSIAD/AIMD-99-77, “Air Force Supply
    Management Action Create Spare Parts Shortages and Operational Problems,”
    April 1999




                                         21
Appendix B. Additional Details on Items Selected
            for Review
    To determine the effectiveness of the execution process, we took a random
    stratified statistical sample of 180 of the 6,400 consumable repair parts whose
    safety levels had been increased in FY 2000 and FY 2001. Items were
    categorized mostly as either Tier 1 or Tier 2 and were selected to receive $320.2
    million of additive investment funds.

    Need Additive Safety Level. Of our sampled items, we determined that the
    safety level increase for 83 items was needed to improve the supply availability
    rate. A list of the items, arranged by the dollar value of the safety level increase,
    follows.

                 Item               Nomenclature            Increase      $ Value
           2840011469445     Blade, Turbine Rotor             2832      2,722,968.00
           2840009927886     Rotor, Compressor                 220      1,018,795.80
           5995011684782     Cable Assembly                     68        904,258.56
           1560013184308     Parts Kit, Tunnel                  36        612,000.00
           6105001681287     Housing, Motor                    114        398,544.00
           1670012505468     Parachute Assembly                256        173,248.00
           6150013495713     Cable Assembly                     35        168,350.00
           1560004182386     Cell, Fuel                         10        146,819.40
           6105009218635     Motor, Direct Current             173        141,860.00
           5960011843229     Electron Tube                      25        127,500.00
           1680003044697     Ball, Universal                    92         95,312.00
           6695011523606     Transducer, Motional              71          73,627.00
           5340014089943     Hinge, Butt                        98         73,516.66
           4710010443526     Tube, Assembly, Metal              83         59,345.00
           6340005474861     Strut, Wiring Assembly             29         52,461.00
           6610005804497     Pilot, Static Tube                 14         42,868.00
           1560005721247     Panel, Insulation                  17         41,052.11
           2835010362011     Air Valve Assembly                130         39,185.90
           4820006012784     Valve, Drain                       25         37,809.75
           5306005365116     Bolt, Eye                         202         33,241.12
           2840000420038     Lining, Friction                  139         31,553.00
           5310011010188     Nut, Self-locking                1058         29,264.28
           5985012539162     Antenna                            13         28,041.00
           2840002286303     Strut, Bearing                     98         26,754.00
           4730009429149     Restrictor, Fluid                  26         25,585.04
           5985014090660     Switch, Frequency                  9          21,888.63
           2995010582811     Control Segment                     8         19,960.00




                                          22
    Items That Needed Additive Investments (cont’d)


     Item             Nomenclature       Increase      $ Value
5895004375677   Amplifier-power Supply       19       18,620.00
1650004693244   Housing, Center              5        16,500.00
5930008432366   Switch, Pressure             53       13,548.92
5310012374809   Nut                        1407       14,646.87
5310011240481   Nut, Self-locking          6591       13,247.91
5330013487057   Seal, Nonmetallic           108       11,592.72
5985010834871   Attenuator, Variable         15        9,375.00
5330994251637   Seal Ring, Metal             24        9,185.28
5945010443344   Relay, Electromagnet          6        8,880.00
1560007596896   Rib, Actuator                5         8,702.50
1560997286706   Bracket, Structural          10        8,500.60
3040011403194   Shaft, Straight              40        7,924.80
1620011136074   Lock Ring Assembly            7        7,707.98
3110002770373   Cone and Rollers            516        7,254.96
1650010115814   Head, Linear Actuator         2        7,120.00
5305003545151   Screw, Tolerance            322        6,633.20
4730005584488   Plug, Disconnect             36        6,480.00
5977005034317   Holder Assembly              13        6,227.00
1680014245351   Grip Assembly               168        6,032.88
3110012163946   Bearing, Ball                39        6,027.45
1650006709359   Cylinder Assembly            98        5,679.10
1650011257219   Piston, Reservoir             6        5,613.72
1680003437660   Fitting Assembly             10        4,950.00
5895012092617   Detector, Frequency          5         4,575.00
3120007659939   Spacer, Turbine Shaft        20        4,375.00
1680010700971   Hook Assembly, Hoist         3         4,221.90
4710007388963   Tube, Oil Bearing            11        3,663.00
5305011051142   Screw, Tolerance           2400        2,712.00
5310003854028   Nut, Assembly                36        2,478.60
5340012372224   Bracket, Mounting            23        2,425.58
5330008494366   Gasket                       44        2,115.08
5325002986559   Stud, Turn Lock             620        2,027.40
9535004488295   Sheet, Metal                  1        1,686.94
5310004637561   Nut, Assembly                18        1,672.92
6220012466466   Panel, Indicating             5        1,421.50
2530008824784   Wheel, Pneumatic             41        1,350.95
4730010269141   Elbow, Tube to Hose          10        1,307.20
6150013479270   Cable Assembly               4         1,083.92
5330003382303   Seal                         47        1,065.49
4820011159793   Valve, Relief Pressure       5         1,063.00
1560007373182   Clamp, Speed                 17          901.00




                               23
               Items That Needed Additive Investments (cont’d)

             Item                Nomenclature        Increase       $ Value
     1730010826398           Shield, Aircraft             2          900.00
     1670002496440           Latch Assembly              6           823.80
     5306006708531           Bolt, Torsion                4          729.52
     4730014445459           Adapter, Straight          25           725.00
     2840011710878           Seal, Metallic             143          534.82
     1560007770664           Bridge Assembly             1           402.65
     5330005736842           Seal, Nonmetallic           24          398.64
     5365012233631           Spacer, Sleeve              13          383.50
     5340008834953           Clip, Spring Tension      1381          359.06
     6220007646063           Lens, Light                 6           346.20
     1560008551723           Beam Assembly                2          330.44
     5305012218679           Screw, Machine             10           240.00
     5975007605436           Junction Box                26          132.86
     5320004012461           Pin-rivet, Threaded        23             75.67
     5340011210484           Clamp, Loop                  1             6.87


Need Reduced Safety Level. For 30 of the sampled items, part of the safety
level increase was unnecessary to achieve a higher supply availability rate or the
revised safety level for the items exceeded the safety level limitation. The
30 items were included in our item projection but were excluded from our dollar
projection because we could not estimate reduced dollar amounts. Although the
30 items had achieved an 85-percent supply availability rate, a portion of the
additive investment was unwarranted. A list of the 30 items, arranged by the
dollar value of safety level increase, follows.

        Item                  Nomenclature          Increase       $ Value
      1660002430392       Parts Kit, Regulator         149      2,956,669.58
      2840000309221       Lining, Friction             186      2,640,013.32
      2840012316096       Duct, Turbine               8163      2,085,728.13
      2840011302767       Seal, Air Turbine            304      1,433,968.00
      6685009616449       Thermocouple                4830        989,860.20
      2840005058458       Support, Turbine             202        835,876.00
      1560011327318       Tank, Fuel                    99        782,100.00
      1560002379347       Canopy, Movable                6        780,000.00
      1560013257856       Web, Structural               32        720,512.00
      2915011829346       Valve                         97        691,125.00
      2840014434080       Disk, Air Compressor         177        687,466.23
      1560012773559       Skin, Aircraft               131        563,783.39
      2840001281205       Nozzle, Turbine              799        511,360.00
      2835012245834       Housing Assembly             191        315,690.53
      2840000659057       Vane, Compressor              24        269,088.00
      1620008214469       Lap Assembly, Valve           28        195,736.24




                                    24
       Items That Needed Reduced Additive Investments (cont’d)

         Item               Nomenclature        Increase        $ Value
       5960010082177    Electron Tube               54          146,745.00
       4320002489104    Pump Unit, Centrifuge       21          132,674.22
       5365001102843    Nut, Compressor Seal        78           93,229.50
       2995002340152    Bracket, Assembly           45           83,105.55
       3010011914377    Drive Unit, Angle           19           60,857.00
       5950006484965    Coil, Electrical            33           52,555.80
       3120012153479    Bearing, Washer           7624           34,308.00
       5340011983705    Bracket, Mounting          302           33,059.94
       5306010044528    Bolt, Shoulder            1344           29,339.52
       9535005962077    Sheet, Metal                15           27,599.70
       1650012132221    Boot, Deicer                 5           11,362.10
       3110013980699    Cup, Tapered Roller        307            9,658.22
       5307009483782    Stud Shouldered           1207            6,735.06
       5310003678636    Washer, Key                154            1,966.58

Need No Additive Safety Level. For 67 of the sampled items, the safety level
increase was either no longer needed to achieve an 85-percent or higher supply
availability rate (50 items) or would have no effect on supply availability because
the item delivery method (8) or supply status (2) had changed, or the production
capability (7) remained limited. Further, for 21 of the items, the revised safety
level also exceeded the safety level limitation. Additional details, by category of
improved supply position, direct vendor delivery and prime vendor contracts,
production capability, and supply status, and an example of why the items no
longer needed increased safety level, follow.

        Improved Supply Position. Fifty items had attained an 85-percent
supply availability rate after they were selected for additive investment. The
items were below the 85-percent supply availability rate when initially selected
for additive investment. However, the supply position of the items had improved
to as much as 100 percent at the time of our review. For example, the safety level
for an access cover was increased by the equivalent of $15,018 in January 2000.
The increase was deemed necessary because the access cover had a supply
availability rate below 85 percent. At the time of our review in April 2001, the
access cover had attained a 100-percent supply availability rate. The potential
additive investment of $15,018 should have been allocated to more deserving
aviation items. A list of the items, arranged by the dollar value of the safety level
increase, follows.

           Item                  Nomenclature        Increase        $ Value
       2840013930453         Shroud, Fan                570        1,357,740.00
       2835007690588         Wheel, Compressor          161          902,364.75
       2915011232249         Valve                      275          598,710.75
       3040002399801         Piston, Linear              78          377,647.92




                                     25
       Items With Improved Supply Position (cont’d)

    Item              Nomenclature        Increase    $ Value
1560011327324     Tank, Fuel, Aircraft        26      172,120.00
1650013564617     Piston, Linear              60      103,348.20
4810003734992     Ring Assembly, Sleeve      180        89,100.00
1560011643901     Beam Assembly               47       81,765.90
5995012098852     Wiring Harness              23        73,604.37
1560010721235     Shell, Nose Assembly       24        49,282.56
6105011603223     Armature, Motor             81        42,228.54
1560009098475     Fairing                      9       35,457.12
5925012508887     Circuit Breaker             25        34,423.00
1560002578461     Tube Assembly, Inlet         9       33,570.00
2835006769924     Shroud, Turbine Wheel       17        28,292.93
2840011848569     Sleeve                      69       21,148.50
3110002710010     Bearing, Roller            233        19,758.40
2995000701839     Housing Assembly            59       18,172.00
2915004470467     Shield Segment, Heat       814        16,336.98
2840014172962     Deflector, Airflow         744       15,415.68
1560012700016     Cover, Access               10        15,018.10
2840006123814     Seal, Metallic              63       14,604.66
1560008613508     Tube Assembly                9        13,671.00
3120001722761     Bearing, Plain             363       11,735.79
6685000434140     Indicator, Pressure          3         7,371.00
3040008701641     Connecting Link, Rig        70         7,147.00
3040012046336     Cam, Control                23         6,656.43
1680010598125     Piston                      38         4,873.50
1560013287233     Support, Structural          1         4,649.12
5306011628521     Bolt, Shear                195         2,622.75
2840000133422     Lining, Friction           169         2,535.00
2840013749594     Lock, Compressor           17          2,226.32
2915003965271     Seal, Fuel Nozzle          230         1,975.70
2840013280238     Can, Extension, Flame       21         1,612.38
5310012745663     Nut, Self-locking          351         1,368.90
5995011281298     Wiring Harness, Bran       11          1,127.39
6150010426353     Cable Assembly               1           758.00
5342013651861     Cap, Filler Opening          1           367.00
5306003174485     Bolt, Machine              105           361.20
2840003506982     Strip Wear, Nozzle          15           348.45
5365011853209     Spacer, Plate               16           292.32
5342003438845     Bracket, Fuel Drain         1            248.40
5320000313339     Collar, Pin-rivet           85           187.00
4720013545651     Hose, Preformed              2           161.58
5930011165267     Switch, Pressure             1           160.70
1560011213743     Support, Structural          1           148.56




                                26
            Items With Improved Supply Position (cont’d)

            Item               Nomenclature       Increase         $ Value
      4010011643934      Wire Rope Assembly           1               71.50
      6210013231346      Filter, Indicator            2               42.40
      3120013722735      Bearing, Sleeve              1               22.75
      3120012214246      Bushing, Sleeve              1                8.90


        Direct Vendor Delivery or Prime Vendor Contracts. Eight items were
being supported by direct vendor delivery or prime vendors after they were
selected for additive investments. For example, the safety level for a self-locking
nut was increased by the equivalent of $60,574 in January 2000. The increase
was deemed necessary because the Government continued to supply the self-
locking nut at a supply availability rate below 85 percent. In June 2000, the
Defense Supply Center Columbus awarded a direct vendor delivery contract for
the self-locking nut. The potential additive investment of $60,574 should have
been allocated to more deserving aviation items. A list of the items, arranged by
the dollar value of the safety level increase, follows.

             Item              Nomenclature        Increase         $ Value
      2840014364759       Vane Assembly              1141          799,932.28
      1560004714117       Cover, Access               206          612,644.00
      2840014364060       Vane Assembly               801          554,179.86
      1560004858706       Cover, Fire Seal            393          365,490.00
      4810012370112       Nut, Self-locking            18           60,573.78
      3120012906494       Bearing, Plain Rod           37           56,412.42
      1650006728013       Fuse, Hydraulic              18           18,293.04
      6340012568141       Housing Assembly              1              359.29

        Production Capability. Seven items had limitations on the quantities the
contractors were producing and delivering at the time they were selected for
additive investments. That meant that no additional stock could be provided
regardless of the safety level increase. For example, the safety level for an
electrical potted module was increased by the equivalent of $741,035 in
January 2000. The increase was deemed necessary because the module had a
supply availability rate below 85 percent. At the time of our review in April
2001, the module had no stock on hand and a forecasted annual demand of
496 and back orders had reached 1,115. The module also had 1,535 either on
contract or on a purchase request, including an additive safety level requirement
of 675, to be delivered by October 2004. In effect, the additive safety level will
provide no improvement in supply availability unless production is significantly
increased. The potential additive investment of $741,035 should have been
allocated to more deserving aviation items. A list of the items, arranged by the
dollar value of safety level increase, follows.




                                    27
                     Production Capability (cont’d)

            Item                   Nomenclature        Increase       $ Value
       2915002215589         Parts Kit, Valve           1260       1,186,920.00
       3110013597286         Bearing, Roller            491          829,790.00
       5960011678796         Electron, Tube             1853         801,774.57
       2925014427741         Module, Potted             675          741,035.25
       1005012844042         Trailing Edge               55          613,907.25
       3020012011347         Gear, Spur                  31          510,815.83
       5930013560125         Switch, Thermostatic        40           87,200.00

        Supply Status. Two items became obsolete or were replaced by different
items after they were selected for additive investment. For example, the safety
level for an aircraft skin was increased by the equivalent of $1,456,422 in
February 2001. In November 2000, the Air Force had notified the Defense
Supply Center item manager that the aircraft skin was being replaced. At the time
of our review in April 2001, the aircraft skin still had a potential additive
investment of $1,456,422 that should have been allocated to more deserving
aviation items. A list of the items, arranged by the dollar value of the safety level
increase, follows.

            Item                 Nomenclature         Increase        $ Value
       1560013959222           Skin, Aircraft            26        1,456,442.00
       5310011340750           Nut, Self-locking         61               34.77




                                     28
Appendix C. Glossary
   The definition of the supply terms used in this report follow.

   Additive Safety Level - The quantity of materiel above the variable safety level
   provided by SAMMS. DoD 4140.1-R limits the safety level quantity to the
   quantity computed for the procurement lead time.

   Direct Vendor Delivery - A contract vehicle under which customer orders are
   shipped directly to the customer.

   Procurement Lead Time - The time interval from the date of the supply control
   study resulting in procurement action to the receipt of the first shipment in the
   supply system. Procurement lead time is comprised of three elements:
   administrative lead time, production lead time, and delivery lead time.

   Reorder Quantity - The quantity of an item associated with the reorder cycle.
   The reorder quantity is equivalent to the product of the reorder cycle (in months)
   and the forecasted average monthly demand.

   Safety Level - The quantity of materiel (in addition to operating stocks) required
   to permit continued operations in the event of variations above the mean of lead
   times or demands.

   Standard Prices - The wholesale selling price of an item established to recover
   the cost of the item as well as the cost associated with buying, storing, and
   managing the item.

   Stratification Process - A uniform portrayal of requirements and assets
   application that is a computer-generated, time-phased simulation of actions
   causing changes in the supply position; for example, procurement, repair, receipt,
   issue, termination, and disposal of materiel.

   Supply Availability Rate - The percentage of requisitions completely filled when
   submitted to an inventory control point.

   Supply Position - The ability of an item to meet forecasted demands at a given
   point in time, dependent on the quantities on hand and due in.

   Variable Safety Level - A quantity of stock to be on hand to provide a
   predetermined degree of protection against items being out of stock. The level is
   based on probability principles and a realistic appraisal of the frequency of
   demands, reorder frequency, average order size, length of lead time, variability of
   lead time, and delivery schedule.

   Virtual Prime Vendor - A contract vehicle under which a third party vendor
   functions as both a single source of supply and distribution on behalf of DLA.




                                        29
Appendix D. Summary of DLA Comments on the
            Finding and Audit Response
   The following is a summary of the DLA comments on the finding and discussion
   and our audit response to those comments.

   DLA Comments on the Finding. DLA took exception to the report statement
   that 3,025 items in the AIS program population either no longer needed an
   additive safety level quantity or did not warrant their variable safety level
   augmented as much, to attain an 85-percent supply availability rate. DLA
   indicated that the safety level requirement cannot be determined as valid or
   effective based on the status of a particular procurement or a point in time but is
   designed to provide added protection over an extended period of time. DLA
   further stated that the safety stock required to achieve the 85-percent target
   availability goal is a statistical calculation that estimates the probability of an item
   being placed on backorder using specified criteria. The SAMMS variable safety
   level distributes safety stock over an inventory control point’s population of items
   in a way that achieves the backorder goal in the most economic manner. Whether
   an item receives a SAMMS variable safety level in no way indicates the item’s
   ability to achieve the 85-percent target.

   DLA also stated that the audit incorrectly used anomalous items to extrapolate
   across the entire population of AIS program items and did not include in the audit
   sample any of the hundreds of items that DLA had already excluded from the
   program.

   Audit Response. DLA comments mischaracterize the finding. Items were not
   selected for audit based on the application of variable safety levels but were
   selected based on the DLA criterion used in its study that items were below an
   85-percent supply availability rate. DLA used 85 percent or more as the supply
   availability rate that aviation repair parts needed to achieve to improve readiness
   and to justify $500 million for purchasing additional mission-critical parts and
   avoid backorders for those parts. The variable safety level of an item was a factor
   that DLA included in its formula for determining the funding required for items
   that needed to be augmented because those items were below its 85-percent
   criterion. We did not determine whether the variable safety level requirement that
   SAMMS computed was valid or effective for a point in time; we determined that
   the variable safety level was changing over time and that DLA should have
   reevaluated those changes to determine whether the $500 million could be
   redistributed to other items that did not meet its 85-percent supply availability
   criterion. We also determined that the additive investment of items needed to be
   evaluated for other factors over time and found that funds could be redistributed
   based on an item’s safety level limitation, supply status, acquisition method, and
   production capability.

   DLA provided us with the AIS program database as of March 20, 2001, with
   11,945 consumable repair parts that DLA selected for additive investment during
   FY 2000 through FY 2003. We randomly selected our sample from 6,400 repair
   parts that had additive safety level increases in FY 2000 and FY 2001. From the


                                         30
results of our random sample, we projected that DLA had augmented, or planned
to augment, the variable safety level of 3,025 items that either did not meet the
DLA selection and investment criteria, were already at or would exceed its safety
level limitation, or would not benefit from additive investment. The sample
results were statistically valid at a 95-percent confidence level for the 6,400-item
population. Between November 2000 and February 2001, DLA excluded
438 items planned for investment in FY 2001 for essentially the same reasons that
we estimated 3,025 additional items no longer warranted additive investment or
warranted a reduced amount. The 438 items were not included in the AIS
program database of 6,400 items that DLA provided to us on March 20, 2001, and
had no effect on our sample results or projection.




                                    31
Appendix E. Summary of DLA Comments on
            Potential Monetary Benefits and
            Audit Response
   The following is a summary of DLA comments on potential monetary benefits
   identified in the draft report and our audit response to those comments.

   Comments on Funds Put to Better Use. DLA did not concur with the
   projection of sample results that $111.6 million of the AIS program funds could
   be put to better use. DLA did not agree with the extrapolation of the sample
   dollar values or the applicability of the classification of sample items to the entire
   population.
   Audit Response. The projection that $111.6 million in AIS program funds could
   be put to better use was based on a random stratified statistical sample that was
   used for the audit and the projection was sustained at a 95-percent confidence
   level. The sample was taken from a database of AIS program safety level
   increases in FY 2000 and FY 2001 that DLA provided us, as of March 20, 2001.
   The projection excluded the dollar amounts for 30 sample items that we
   concluded warranted reduction in the investment and 23 sample items that were
   above the safety level limitation but still needed augmentation to reach an
   85-percent supply availability rate. In addition to the random stratified statistical
   sample, we reviewed DLA and DORRA computer reports that were available
   during our audit of AIS program safety level increases. An analysis of one DLA
   report dated March 31, 2001, indicated that, for those items managed by the
   Defense Supply Center Richmond in June 2001, about $59.6 million of AIS
   program funds would have been invested either above the safety level limitation
   or in place of what should have been financed by the SAMMS variable safety
   level. Considering the results of our random stratified statistical sample as well
   the results of our separate analysis, we believe the projection that $111.6 million
   of AIS program funds could be put to better use is still valid. We address
   additional DLA comments on our sample results in the following paragraphs.

   DLA Comments on Supply Availability Above 85 Percent for 50 Items. DLA
   stated that the audit classification of items with a supply availability rate above
   85 percent was not valid and could not be projected across the entire population
   of items. For FY 2000, 81 percent of all DLA-managed items with a variable
   safety level had a supply availability rate above 85 percent. Therefore,
   classifying items with a supply availability rate of 85 percent or greater as no
   longer needing their variable safety levels augmented was invalid in the context
   of all other items assigned a variable safety level. The judgment of whether a
   safety level requirement is valid or effective is not based on the status of a
   particular procurement action or point in time but rather on the need to provide
   protection against demand variability. Of the 50 items, 9 were excluded from the
   AIS program prior to receipt of the draft report and prior to obligation of any
   funds. The total dollar value of the nine items was $2.65 million, or 63.5 percent
   of the funds tied to this category of items. Removing the nine items from this
   category would lower the point estimate by $20.61 million to $90.99 million.


                                         32
Audit Response. The audit classification of items above an 85-percent supply
availability rate was valid and can be projected across the entire population of
items in the AIS program for FY 2000 and FY 2001. We did not review all of the
DLA-managed items and the assertion that, in FY 2000, 81 percent of the items
with a variable safety level had a supply availability rate above 85 percent is
irrelevant to the finding. DLA established the population of 6,400 items that were
selected for AIS program funding using a criterion that those 6,400 items had a
supply availability rate below 85 percent. In our random stratified statistical
sample of 180 items from that population, we determined that 50 items attained at
least a supply availability rate of 85 percent based on an item’s stock availability
performance, current stock position, and forecasted demands. All 50 sample
items, whether funds had been obligated or not, were in the AIS program at the
time of our review and, thus, were subject to the valid statistical projection.

DLA Comments on Direct Delivery or Prime Vendor for Eight Items.
Generalizing the sampled items found supported by direct delivery or prime
vendor across all items in the AIS program population is inappropriate. Of the
items in this category, two were excluded from the AIS program prior to receipt
of the draft report and prior to obligation of any additive funds. Three other items
were on a C-5 prime vendor contract; however, the additive amounts were already
obligated and all of the other items (263) on the C-5 contract were removed from
the AIS program in February 2001. The additive amounts for another two items
in the category were also already obligated and earmarked for reallocation once
the additive level is receipted and issued. Removing seven of the eight items
from this category would lower the point estimate by another $22.85 million to
$68.14 million.

Audit Response. The audit extrapolation of items supported by direct delivery or
prime vendor is valid and can be projected across the entire population of items in
the AIS program. At the time of our review of sample items from March to
June 2001, 197 items were still on the C-5 prime vendor contract programmed to
receive AIS funding of $9.3 million. All of the eight sample items, whether funds
had been obligated or not, were in the AIS program at the time of our review and,
thus, were subject to the valid statistical projection.

DLA Comments on Production Limitation for Seven Items. Generalizing the
sample items found already at maximum production rates across all items in the
AIS program population is inappropriate. Doing so would be inconsistent with
DLA asset allocation methodology. In the DLA support hierarchy, safety level
requirements are allocated applicable assets after backorders and, as such, provide
immediate protection against demand variance during the procurement leadtime
period. While the items may have had production limitations, in each case the
production limitation exceeded the demand rate. Thus, no production constraints
affected support. Removing the seven items in the category would lower the
point estimate by another $21.5 million to $46.64 million.

Audit Response. The audit classification of items with production limitations is
valid and can be projected across the entire population of items in the AIS
program. The DLA comments center on asset allocation methodology and
protection against demand variation but the finding addressed the distribution of
AIS program funds in an efficient manner to improve near-time supply


                                    33
availability and readiness. Investing AIS program funds in items with production
limitations will not speed up production capabilities and improve near-time
supply availability or readiness. For the seven items in our sample, the additive
investment will simply extend production contracts years in the future. No
additional stock will be made available on an annual basis in the near term and,
therefore, AIS program support would be inefficient and ineffective in improving
supply availability or readiness related to those items.

DLA Comments on Two Obsolete or Replaced Items. Generalizing the sample
items found obsolete or replaced across all items in the AIS program population is
inappropriate. DLA has a proactive program that reviews AIS program items and
removes any items coded (or future coded) as obsolete. The two items in the
category were excluded from the AIS program prior to receipt of the draft report
and prior to any investment of funds. Subsequent DLA reviews of AIS program
items for obsolescence revealed no items received funds after they were identified
as obsolete. Removing the two items in the category would lower the point
estimate by another $5.78 million to $40.86 million.

Audit Response. The audit classification of items as obsolete or replaced is valid
and can be projected across the entire population of items in the AIS program.
The two items we identified as obsolete were not coded as such. The items were
incorrectly coded and identified to us by item managers as scheduled for
replacement. The DLA position that coded items were reviewed has no bearing
on the finding. Both sample items, whether funds had been obligated or not, were
in the AIS program at the time of our review and, thus, were subject to the
statistical projection.




                                    34
Appendix F. Summary of DLA Comments on
            Management Control Weakness and
            Audit Response
   The following is a summary of DLA comments on the draft report management
   control weakness and our audit response to those comments.

   DLA Comments on the Implementation Plan. DLA has incorporated changes
   to the FY 2002 Implementation Plan that address all of the draft report
   recommendations. However, it is incorrect in asserting that the initial (FY 2000)
   Implementation Plan was unavailable for much of the execution process. The
   execution process for any fiscal year occurs throughout the entire year and so that
   plan (completed in December 1999) was available throughout the remaining
   9 months of the fiscal year. From the outset of the program, DLA established a
   working group that consists of representatives from the Military Departments,
   inventory control points, and DLA headquarters. The minutes of those meetings
   describe discussions that took place within the working group about how items
   were selected and how the Military Departments scrubbed potential investment
   items. The implementation plan was intended to be a high-level overview
   document, whereas the AIS program working group was to advise on the
   day-to-day intricacies of selecting items and maintaining the impetus of the
   program. Giving day-to-day advice and maintaining program impetus were
   accomplished despite the lack of a comprehensive implementation plan.

   Audit Response. The execution process started before an implementation plan
   was available. The execution process consisted of: DORRA determining
   potential candidates for additive investment; the Military Departments and
   inventory control centers reviewing the potential candidates; the Defense Supply
   Center Richmond approving the final list of items for additive investment;
   DORRA computing safety level increases; and, the Defense Supply Center
   Richmond sending the safety level increases to the inventory control points for
   loading into SAMMS. The first four steps of the process were completed before
   the implementation plan was prepared in December 1999. Similarly, the first AIS
   working group meeting was not held until February 2000, which was after stock
   levels were already increased at the inventory control points. The working group
   meeting minutes did not contain advice on selecting items. Instead, issues
   concerning the selection and validation process were raised at the working group
   meeting that should have been resolved before the execution process began, and
   that possibly would have been resolved had a comprehensive implementation plan
   been prepared. The lack of a comprehensive implementation plan, endorsed by
   DLA headquarters, was a material management control weakness for ensuring the
   success of the $500 million AIS program.




                                       35
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Logistics Agency
   Commander, Defense Supply Center, Columbus
   Commander, Defense Supply Center, Philadelphia
   Commander, Defense Supply Center, Richmond

Non-Defense Federal Organization
Office of Management and Budget
  National Security Division




                                          36
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          37
Defense Logistics Agency Comments




                     39
40
41
Final Report
 Reference




Revised




               42
43
44
45
46
47
48
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Tilghman A. Schraden
Thomas D. Kelly
Alexander L. McKay
Robert E. Schonewolf
Kayode O. Bamgbade
Eugene V. Barr
Janice Conte
Lusk F. Penn
James Hartman
Sharon L. Carvalho
